No. 20-621
IN THE

Supreme &turf of thr

ttilthStates

HUA CAI
Petitioner-Plaintiff-Appellant
v.
HUNTSMAN CORPORATION
Respondent-Defendant-Appellee

On Petition for a Writ of Certiorari
to the United States Court of Appeals for
the Tenth Circuit
REPLY BRIEF FOR THE PETITIONER
HUA CAI
Pro se
2F No. 5, 113 Lane,
Changshu Road, Shanghai,
200040 P.R: China
Tel: +86 136 8195 1099
mustangincpk@yahoo.com

1

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
ARGUMENT

ii
1

Huntsman Corporation's Business Conduct
Guidelines is truly a Contract
Lower Court's Verdict Is Egregious
CONCLUSION

3

11

TABLE OF AUTHORITIES
CASES
Delia v. Verizon Communications Inc., 656 F.3d
1, 7 (1st Cir. 2011)
Grable & Sons Metal Prods., Inc. v. Darue
Eng'g & Mfg., 545 U.S. 308 (2005)

3
3

1
ARGUMENT
I. Huntsman Corporation's Business Conduct
Guidelines is truly a contract.
Respondent repeatedly stressed that Cai was not
an employee of Huntsman Corporation. See Br. in
Opp. 1-2. But their emphasis makes no sense. In the
"Business Conduct Guidelines" (hereinafter BCG),
Huntsman Corporation has clearly indicated that
10,000+ associates they employed worldwide are the
contracting party. (R.103.) It also re-stressed that
BCG applies globally. (R.107.) Respondent shall find
a way to prove that Cai is not an associate of
Huntsman Corporation but seems they can't. Cai has
never alleged Huntsman Corporation breached
Employment Contact. In the Complaint, Cai only
alleged Huntsman Corporation breached BCG. (see
generally R.5-8.) Cai merely mentioned Huntsman
Shanghai breached Employment Contract but didn't
name it as defendant. Id.
BCG is a contact other than employment
contract. (R.98-140.) Its like a dos and don'ts list
wrote in 24 languages, nearly covers every aspect,
include how to use company physical property, how
to protect intellectual property, how to use company
IT systems, how to cope with media and investors,
how to handle and/or comply with conflicts of interest,
anti-corruption, sex-harassment, insider trading,
international trading compliance, work-site EHS
(Environment, Safety & Health).../d.
BCG stipulates rights and obligations other than

2
employment contract, that is to help Huntsman
maintain their "highest ethic standards and
reputation". (R.103.) To that end they ask employees
to report possible violations (R.106.), and Huntsman
promise "protect them from retaliation". (R.107-109.)
"Violations of these Guidelines can have serious
consequences, including disciplinary action up to and
including termination of the individuals involved".
(8.109) Even if the offender is not its employee,
Huntsman Corporation can ask its subsidiary to
terminate his employment contract. At least the
no-retaliation policy in BCG is unambiguous and
definite enough to constitute legally binding contract:
no retaliation, means zero retaliation, therefore
100% investigation should be carried out to
determine if retaliation exists.
Respondent also contend that "the Guidelines
contain no specific contractual terms such as the
duration of any contract, any work to be performed,
or the salary to be paid". See Br. in Opp. 1. But it
doesn't stand with scrutiny. For example no one
denies that Non-disclosure Agreement (employee
need to keep employer's secret) and Non-compete
Agreement (employee can not work for rival) are all
contracts, but they do not contains those terms.
In short, BCG is not an employment Contract,
but its a contract, as Utah Federal Court previously
ruled, "...the Code of Ethics and Conduct are
enforceable, unilateral contracts and are not illusory".
Pet. at 8.

3
II. Lower Court's Verdict Is Egregious
Respondent contended that there is no federal
questions for review since only Utah State Contract
Law applied to this case. But they may forgot that
they first cited other circuit court's precedent cases to
support their views, in DEFENDANT HUNTSMAN
CORPORATION'S REPLY IN SUPPORT OF ITS
MOTION FOR JUDEMENT ON THE PLEADINGS,
they cited precedent case from 1st circuit: DeLia v.
Verizon Communications Inc., 656 F.3d 1, 7 (1st Cir.
2011). (R.157.) But they overlooked one thing is that
1st circuit also believe that "Code of Business
Conduct" constitutes contract, they didn't ruled in
favor of employee only because the employee already
has signed "Code of Business Conduct" with
subsidiary instead of parent company. Pet. at 8.
The Supreme Court have already ruled that
ederal-question jurisdiction is usually invoked by
plaintiffs pleading a cause of action created by
federal law, but this Court has also long recognized
that such jurisdiction will lie over some
state-law claims that implicate significant federal
issues", Grable & Sons Metal Prods., Inc. v. Darue
Eng'g & Mfg., 545 U.S. 308 (2005). This case is a
good example: There is no federal contract law in the
United States but the definition of contract is the
same in almost every states, that is require an offer,
an acceptance, and consideration. So there is a
common legal basis for reasoning.
The key point is how to define the definiteness of
contract terms. As petitioner mentioned, lower

4
courts' verdict made a very bad precedent and bring
chaos into law system. They can't point out which
BCG provision subject to more than one
interpretation, they just made conclusory assertion.
Pet. at 11. If this new approach works, other judges
may cite this bad precedent to void contracts, it may
impact every working people and mess up other
contract law dispute. They shaken up America's
contract law foundation. The clarification of this
issue is no less important than the Constitution.
More importantly, lower court judges flouting
legal precedents, is intolerable at any time. The trial
court judge considered Code of Conduct a contract
couple of years ago, but reversed himself in this case.
Pet. at 9-10. The circuit court also turned a blind eye
to this confusion, refuse to follow precedent from
same state, allowing contradictory precedents to
coexist. Pet. at 8-9.
Petitioner comes from People's Republic of China,
in that country, the judicial system is notorious, but
what you despised and hated is happening right now
in America. If this court do not say no to egregious
verdict, soon it will downgrade to China's level.

5
CONCLUSION
For the foregoing reasons and those stated in the
petition for a writ of certiorari, the petition should be
granted. In view of the egregiousness of the lower
court's decision, the Court may wish to consider
summary reversal.
December 29, 2020
Respectfully submitted,
Hua Cai
Pro se
2F No. 5, 113 Lane,
Changshu Road, Shanghai,
200040 P.R. China
Tel: +86 136 8195 1099
mustangincpk@yahoo.com

